<html>
<title> - HEARING ON THE TENNESSEE VALLEY AUTHORITY'S KINGSTON ASH SLIDE AND POTENTIAL WATER QUALITY IMPACTS OF COAL COMBUSTION WASTE STORAGE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                          THE TENNESSEE VALLEY
                        AUTHORITY'S KINGSTON ASH
                       SLIDE AND POTENTIAL WATER
                        QUALITY IMPACTS OF COAL
                        COMBUSTION WASTE STORAGE

=======================================================================

                                (111-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
48-645 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)




            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
ELLEN O. TAUSCHER, California        VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          GARY G. MILLER, California
RUSS CARNAHAN, Missouri              HENRY E. BROWN, Jr., South 
STEVE KAGEN, Wisconsin               Carolina
DONNA F. EDWARDS, Maryland           TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Davis, Hon. Lincoln, a Representative in Congress from the State 
  of Tennessee...................................................     5
Hoyos, Renee Victoria, Executive Director, Tennessee Clean Water 
  Network........................................................     7
Kilgore, Tom, President and Chief Executive Officer, Tennessee 
  Valley Authority...............................................    22
McCoin, Sarah, Tennessee Coal Ash Survivors Network..............     7
Meiburg, Stan, Acting Regional Administrator, Region Four, United 
  States Environmental Protection Agency.........................    22
Sloan, Paul, Deputy Commissioner, Tennessee Department of 
  Environment and Conservation...................................    22
Vengosh, Avner, Professor, Earth and Ocean Sciences, Duke 
  University.....................................................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    33
Costello, Hon. Jerry F., of Illinois.............................    35
Davis, Hon. Lincoln, of Tennessee................................    37
Mitchell, Hon. Harry E., of Arizona..............................    39
Oberstar, Hon. James L, of Minnesota.............................    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hoyos, Renee Victoria............................................    45
Kilgore, Tom.....................................................    74
McCoin, Sarah....................................................    84
Meiburg, Stan....................................................    89
Sloan, Paul......................................................    97
Vengosh, Avner...................................................   123

                       SUBMISSIONS FOR THE RECORD

Napolitano, Hon. Grace F., a Representative in Congress from the 
  State of California, questionaire distributed by State of 
  Tennessee Department of Health.................................    26


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  HEARING ON THE TENNESSEE VALLEY AUTHORITY'S KINGSTON ASH SLIDE AND 
    POTENTIAL WATER QUALITY IMPACTS OF COAL COMBUSTION WASTE STORAGE

                              ----------                              


                        Tuesday, March 31, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. I would like to call the Subcommittee to 
order. This afternoon we will be holding a hearing on the 
Tennessee Valley Authority's Kingston Ash Slide: Potential 
Water Quality Impacts of Coal Combustion and Waste Storage.
    We are aware that on December 22nd of last year a retaining 
wall collapsed at a coal ash storage facility at the Tennessee 
Valley Authority's Kingston Fossil Plant. The U.S. 
Environmental Protection Agency described what happened next as 
a ``tidal wave of water and ash that crashed down on the local 
community and into nearby rivers.''
    Unfortunately, this description is really not an 
exaggeration. Over 5.4 million cubic yards of coal ash sludge 
were released. Over 100,000 cubic yards were deposited on the 
land, resulting in the destruction of three homes and damage to 
dozens of other properties. Sludge was spread across over 300 
acres, at points over six feet deep. Over five million cubic 
yards ended up in the local river systems.
    I have heard the concern that this oversight hearing on the 
Kingston ash spill is just a backhanded effort to discontinue 
the use of coal as a power source. I reject that out of hand. 
That is simply not true. This hearing is both about the impacts 
of over five million cubic yards of coal ash sludge being swept 
into a community and river, and an investigation about how this 
could ever have happened. It is also about the environmental 
practices put in place by a Federal entity and about what other 
Federal and State agencies did to ensure they were robust.
    This Committee and Subcommittee have a constitutional 
obligation to oversee the agencies within their purview. I do 
not take lightly any suggestion that this hearing is a front 
for some other agenda. When your drinking water is threatened 
with leeching and poisoning, from both arsenic and mercury it 
is not a play situation.
    It is important to note that scrutiny should fall not just 
on the TVA with regards to this ash spill. The U.S. 
Environmental Protection Agency and the State of Tennessee also 
have an obligation to be vigilant in protecting the 
environment. More importantly, they must show that they are 
overseeing the cleanup and response effectively. EPA, 
especially, has a duty to provide oversight of both the actions 
of TVA and the State of Tennessee.
    The December 22nd coal ash spill really has had 
consequential impacts on the lives of nearby residents, as well 
as on the local environment. It also served as a wake up call 
to the Congress. It has raised questions not only about the 
storage of coal ash generally, but also about the Tennessee 
Valley Authority itself. This Subcommittee held a host of 
hearings on a wide variety of subjects last year, but we did 
not hold any on the Tennessee Valley Authority. We should have.
    In fact, it has been nearly a decade since the Committee 
held hearings focused solely on the Tennessee Valley Authority. 
That oversight regarding oversight ends today. As a result, we 
might be having oversight hearings now every 30 to 60 days. 
This hearing is just a first in a series that will evaluate the 
Tennessee Valley Authority and various elements of its mission. 
I have full faith that both the board and the management of the 
Tennessee Valley Authority will join me in ensuring that from 
this point on TVA will become a model agency; both in terms of 
its mission to the Tennessee Valley region, and also in terms 
of environmental stewardship.
    I thank you for attending this important hearing and I look 
forward to hearing our witnesses. I now recognize our Ranking 
Member, Congressman Boozman from Arkansas.
    Mr. Boozman. Thank you very much, Madam Chair. Today this 
Subcommittee begins its review of the potential water quality 
impacts of coal ash storage, specifically the December 22nd, 
2008 incident at the Tennessee Valley Authority power 
generation facility in Kingston, Tennessee.
    This hearing continues what is becoming an all too familiar 
refrain from the Committee on Transportation and Infrastructure 
regarding the declining state of our Nation's infrastructure. 
While public and private utilities have safely operated 
approximately 600 coal ash sites for decades with only a few 
documented failures, it is important to recognize that this 
spill directly impacted more than 40 property owners. Homes 
were rendered uninhabitable. Water mains and gas lines 
ruptured. Nearby neighborhoods had to be evacuated. Thankfully, 
no one was hurt and it is my sincere hope that what has 
occurred at the Kingston coal ash disposal site was an isolated 
incident.
    Since the spill, it has become evident that the Tennessee 
Valley Authority and the Tennessee Department of Environment 
and Conservation must do a better job of inspecting coal ash 
storage facilities. Indications of small leaks at the Kingston 
facility were detected as far back as 2003, yet it is unclear 
what corrective actions took place to reinforce the dikes that 
impound the coal ash.
    I would like to hear the witnesses elaborate on what steps 
were taken between 2003 and the date of the spill to strengthen 
the impoundment structure. In this case, an ounce of prevention 
may have proven to be a pound of cure. Had the Tennessee Valley 
Authority and Tennessee Department of Environment and 
Conservation taken corrective action and made a minimal 
investment at that time of the initial leak then perhaps we 
would not have had almost an $850 million problem.
    I believe the Tennessee Valley Authority has traditionally 
been a good steward of the environment and one of the more 
accountable Federal agencies. After all, most of its employees 
including CEO Tom Kilgore reside within the Tennessee Valley 
Authority and are all directly impacted by the actions taken by 
the agency.
    It appears this spill is a failure of the Tennessee Valley 
Authority and the Tennessee Department of Environment and 
Conservation to adequately inspect the Kingston facility and 
take the appropriate corrective action. Additional laws or 
Federal regulations would probably not have prevented this 
terrible accident. New laws and regulations will not replace 
homes, family treasures, heirlooms, and other personal property 
lost as a result of the Kingston spill.
    Even if coal ash were regulated under Subtitle C of the 
Resource Conservation and Recovery Act, it is unlikely this 
spill would have been prevented. In fact, the Environmental 
Council of the States recently reiterated its position that the 
States, not the Federal Government, should be responsible for 
the regulation of coal ash as a nonhazardous waste. The Clinton 
Administration in May 2000 determined that fossil fuel 
combustion waste should not be regulated as hazardous waste. In 
addition, in 2006, the EPA also determined that mercury is 
retained by the resulting coal combustion residues and is 
unlikely to be leeched at the levels of environmental concern.
    When managed properly, coal combustion waste can be 
beneficially reused for construction materials used in our 
highways, bridges, buildings, and other infrastructure 
projects. This reuse has resulted in significant economic, 
social, and environmental benefits. However, this is little 
comfort for those property owners impacted by the Kingston 
spill who have sacrificed a great deal and in some cases have 
forfeited their homes and other irreplaceable memories to this 
accident.
    I thank you, Madam Chairwoman, for holding this hearing and 
I look forward to the testimony of the witnesses. I yield back.
    Ms. Johnson. Thank you very much. The Committee now 
recognizes a distinguished Member of this Full Committee and 
former Chair of this Subcommittee, Mr. James Duncan.
    Mr. Duncan. Thank you very much, Madam Chairwoman. Thank 
you for calling this hearing. I am sorry I had another 
appointment and didn't get here in time to hear your opening 
statement. I did hear most of the statement by the Ranking 
Member, Mr. Boozman, and that was a fine statement. I want to 
welcome our former Member, my friend Lincoln Davis, who is such 
an outstanding Member. We worked together closely on many, many 
things.
    This spill is not in my district but it was close enough 
that, like all people in east Tennessee, I had a lot of 
concerns about it. I did go down and take a helicopter tour and 
met with all of the officials who were working on it. I do 
understand that at one point it said that TVA was spending over 
$1 million a day to take corrective action. I don't know how 
much they have spent since that first story came out but it 
does seem to me that TVA is doing everything possible to try to 
rectify this situation and make sure that it doesn't happen 
again. I do think that TVA has among the finest leadership that 
the agency has ever had, contrary to the impression I think 
some people have tried to leave. Certainly no one in TVA and 
particularly those at the top level wanted this to happen or 
intended for it to happen.
    Everybody has been trying to, I think, treat the people who 
were affected as fairly as possible. In fact, I understand that 
92 percent of those who were affected by this have accepted 
TVA's first offer. That, I think, shows that there has been a 
lot of fairness in this situation. Although, I have noticed 
that some people have dollar signs in their eyes over this and 
so there have been a lot of lawsuits filed. Of course, we had a 
New York law firm who came in and I suppose want to make a lot 
of money out of this. But we have got to be very careful there. 
We have also got to remember that 99.99 percent of the people 
in the Tennessee Valley would be hurt if we go ridiculously 
overboard or start having excessive judgements or recoveries.
    Some people have tried to use this, they have been almost 
gleeful--some groups have--that this happened because they want 
to use it to promote a radical political agenda and 
particularly an anti-coal agenda. Coal produces over half of 
our energy in this country and about 60 percent of TVA's power. 
If we just basically do away with coal in this country, and I 
don't represent or have really any coal production in my 
district, but if we just do away with coal in this country you 
are going to see a doubling or tripling or quadrupling of 
utility bills. Who that is going to hurt, that is going to hurt 
the poor and the lower income and the working people most of 
all.
    I hope that some of these groups in their glee that this 
has happened will stop and step back and think about how much 
they will hurt the poor and the lower income and the working 
people if we use this tragic event to promote this anti-coal 
agenda.
    Now, having said that, I do want to make sure that 
everybody who is directly affected is treated as fairly as 
possible and is compensated for their loss. I am a little bit 
concerned that some people who are very far away from this 
spill may use this to make unjustified claims. I hope that 
doesn't happen.
    But I am pleased that you are holding this hearing. This is 
a very, very unusual event and certainly has never been to this 
extent. I feel certain, based upon what I have been told by all 
the people involved, that everything possible is being done to 
make sure that an event like this never happens again. Thank 
you very much, Madam Chairwoman.
    Ms. Johnson. Thank you very much. I would ask everyone that 
has opening statements to submit them for the record so that we 
can go right to our first panelist, Mr. Lincoln Davis of 
Tennessee. He represents the district where the coal ask spill 
occurred so we will value his insights on this issue. 
Consistent with Committee practice, this panel will be 
dismissed at the conclusion of Congressman Davis's testimony. 
Your full statement will be placed in the record. If you can 
stay within five minutes, we would appreciate it. I know that 
is hard.

    TESTIMONY OF LINCOLN DAVIS, MEMBER, FOURTH DISTRICT OF 
               TENNESSEE, UNITED STATES CONGRESS

    Mr. Davis. Let me say, it is good to be back in the 
Committee room where my first two terms were spent serving here 
on this Committee. I appreciate the great work that Chairman 
Oberstar and certainly Chairwoman Johnson are doing. I 
appreciate the opportunity to be here today to talk about the 
issues and the spill that occurred in the eastern part of my 
district. It is also a privilege to be here with Ranking Member 
Boozman from Arkansas and my good friend Jimmy Duncan. The area 
where our districts border is close to where this ash spill 
occurred.
    Kingston, Tennessee, where the ash spill occurred, is on 
the eastern side of my Congressional district. I have the honor 
and pleasure of representing 10,000 of Tennessee's 40,000 
square miles and have the fourth most rural residential 
Congressional district in America. I am blessed to live within 
some of the most beautiful mountains, overlooks, and waterways 
in our Nation. The valley I live in is a blessing that supports 
tourism and industry in Tennessee and is an inheritance that we 
are bound as good stewards to pass on to future generations.
    On December 22nd last year when a dike at TVA's Kingston 
Fossil Plant broke and released over a billion gallons of coal 
ash into the surrounding areas, it was a major setback for 
landowners, for our environment, for the mission of TVA, and 
for the eight million rate payers who rely on the TVA for low 
cost electricity and service.
    I have visited this site now on several occasions. 
Additionally, I have met with the CEO of TVA, administrators of 
the Environmental Protection Agency, and current Administration 
officials as well as local officials and constituents who are 
directly affected by what has occurred. In my discussions with 
those involved, I have come to three conclusions.
    First, the cleanup will come slowly and at great cost. 
Second, the financial burden of setting this straight should 
not fall on those who have been harmed. Third, my constituents 
and the land they live on must be made whole again. Let me 
repeat that: My constituents and the land they live on must be 
made whole again.
    When President Roosevelt established the TVA with his 
signature in 1933, he launched an independent agency that would 
help solve some of the southeast's most challenging problems. 
TVA reforested land, produced navigable waterways, developed 
fertilizer that would help reclaim eroded soil, and by 1949 
delivered electricity to a million people. Today TVA serves 
eight times that number.
    This history is well known to my constituents, as well as 
all across the Tennessee Valley. However, TVA's history, as 
with that of our Nation, is imperfect. Last December the 
public's trust was broken. But America's strength has never 
relied on an impossible standard of never making mistakes. 
Instead, it is our commitment to correct our failures and move 
forward with the promise to never repeat our most egregious 
missteps that keeps America strong. This is precisely what I 
expect of TVA.
    I have spoken with officials from this Administration and 
the EPA who have assured me they will stay on the ground to 
oversee this cleanup until it is completed to everyone's 
satisfaction. I have received a similar assurance from TVA that 
they have the means to make this right. I am pleased to hear 
from TVA that they have already purchased land and homes 
appraised at nearly $20 million. I expect that will continue.
    I understand too that TVA is currently inspecting the 
containment dikes at its 10 other fossil plants and has hired 
an independent engineering company to perform an in-depth 
analysis of the root cause of this ash spill. I want these 
findings to be made public so that every rate payer and 
lawmaker alike can take part in our effort to ensure that this 
never happens again.
    As a Congressman representing the spill zone, I expect two 
things of TVA. First, TVA must continue working closely with 
the Corps of Engineers, the EPA, the Tennessee Department of 
Environment and Conservation, and the local community to ensure 
that TVA is in compliance with all relevant laws. Second, they 
must act with complete transparency. TVA must do everything in 
their power to earn and regain the public's trust, including 
making their findings public and holding unscripted meetings 
with ratepayers so the voices of citizens in the spill zone can 
be heard.
    If TVA cannot fulfill their duty to make my constituents 
whole, I am fully prepared as a Member of Congress to call upon 
our current Administration to name the EPA as the lead agency 
in charge of the cleanup and to appoint a czar that will hold 
TVA accountable. In the meantime, I take the EPA on their word 
that they will remain in place to see the job through. I thank 
them for the work they do and for being here today to speak on 
this important issue.
    As a final note, I would like to point out that the charge 
we have before us first and foremost is to see Kingston cleaned 
up. Undoubtedly, and as we have already seen, there are those 
on both ends of the political spectrum who would use this spill 
to push their narrowly focused agenda for America's energy 
policy. Coal has been a part of America's economic engine for 
all of the years of our industrial might and will likely play a 
role alongside solar, wind, and other alternative energies as 
we work toward a cleaner world and freedom from foreign oil. To 
be sure, our economic and national security depend upon this. 
However, I would ask that as this worthwhile debate plays out 
we not let it distract from the pressing needs of the people in 
Kingston, Tennessee.
    Again I want to thank the Members of Congress, Chairman 
Oberstar, and Chairwoman Johnson for allowing me to be here 
today. There is plenty of work yet undone to restore the site 
at Kingston and still more ahead to forge a clear path for a 
brighter new energy future for America. It is my sincere hope 
that we will continue to discuss these issues, as we are today. 
I have no doubt that with the efforts of committed men and 
women like those who have assembled here we can see these 
efforts come to light. Thank you for allowing me to be here 
today.
    Mrs. Napolitano. [Presiding] Thank you, Congressman Davis. 
A vote has been called so we are going to have to move on. But 
I couldn't totally agree with you more on the cleanup issue. 
Thank you for taking the stance of making sure the cleanup is 
effected and that EPA sticks with it. I have a similar 
situation, so I know exactly what you may be going through. I 
think the PRPs, the potential responsible parties, ought to be 
commended if they are working with you and gone after if they 
are not.
    Mr. Davis. I have had many visits in the area and met with 
folks. At this point in time there has been a good, open line 
of communication especially with our Congressional office. This 
is located almost on site in Rockwood, the neighboring town.
    Mrs. Napolitano. Well, thank you, sir for your diligence.
    Mr. Boozman. Madam Chair?
    Mrs. Napolitano. Yes, Mr. Boozman?
    Mr. Boozman. We would like to submit a whole bunch of 
written questions for you to respond to personally in your 
writing.
    Mr. Davis. Could I critique some of those questions, to be 
sure?
    [Laughter.]
    Mr. Boozman. Well, thank you very much for being here.
    Mrs. Napolitano. Thank you. We will call up the next panel 
and begin with the first witness. Then we call a recess for the 
votes. We have 12 minutes left.
    We have Sarah McCoin from Harriman, Tennessee; Renee 
Victoria Hoyos, Executive Director, Tennessee Clean Water 
Network in Knoxville, Tennessee; and Dr. Avner Vengosh, 
Professor of Earth and Ocean Studies at Duke University in 
Durham, North Carolina.
    We will start with Ms. McCoin. You have five minutes and 
then we will recess. You may proceed.

    TESTIMONY OF SARAH MCCOIN, TENNESSEE COAL ASH SURVIVORS 
 NETWORK; RENEE VICTORIA HOYOS, EXECUTIVE DIRECTOR, TENNESSEE 
 CLEAN WATER NETWORK; AND AVNER VENGOSH, PROFESSOR, EARTH AND 
                OCEAN SCIENCES, DUKE UNIVERSITY

    Ms. McCoin. Good afternoon, Chairwoman Johnson, Ranking 
Member Boozman, and distinguished Members of the Committee. 
Thank you for the opportunity to appear before this Committee 
and to discuss the TVA coal ash disaster in Harriman, Tennessee 
and Kingston, Tennessee, they were both affected communities, 
that occurred on December 22nd, 2008.
    I personally am a seventh generation resident of Harriman, 
Tennessee. My relatives have lived at the Adkisson Farm since 
1802. I am a member of the Tennessee Coal Ash Survivor Network 
and I am here to testify before you all today on behalf of my 
community, the diverse community of Harriman, Tennessee.
    In this testimony, I want to express three main points. And 
I am approaching this Committee with a plea for your help. 
Firstly, TVA is not listening to us. It is as if they don't 
care. We need more information and increased communication. 
Secondly, many families fear that they are poisoning their 
children by remaining in their homes. They do not have the 
resources to pay for testing on those children. They need help; 
they need answers. We are hoping to obtain that. Thirdly, TVA 
must be held accountable for the damages they have caused.
    Prior to the spill, we lived under a false sense of 
security. I drove past that ash pile day in and day out, never 
thinking anything about it, never assuming that it was 
dangerous. It was just a place to store coal ash. The spill 
changed that perspective and has left us scared and confused.
    Since the coal ash spill, I have received only four 
documents from TVA about the status of the contamination and 
the cleanup efforts. The residents who were immediately 
impacted have been contacted by TVA about their losses and 
concerns. Other residents were instructed to file claims with 
the Outreach Center and the Property and Casualty Company. As 
of today, there has been little or no response to those claims.
    Even more troubling is people who have not sought legal 
counsel from attorneys. They are just sitting and waiting. They 
are waiting for help and waiting for answers. TVA has held a 
series of public meetings but these meetings did not provide 
clear answers. For many, TVA has failed to adequately inform us 
about our property, their plans for cleanup, and the 
environmental risk.
    TVA must rectify the disaster they created and pay for 
resulting damages. We agree that the coal ash must be removed 
from the Emory River but we fear that dredging the river will 
cause further leeching of toxic metals into the water and will 
cause more hazardous particulates to be released into the air. 
Further, there are inconsistencies between TVA's dredging 
reports and the independent testing regrading environmental 
risk. We cannot support this plan until the irregularities 
about the risk and hazards of the dredging of the river are 
resolved.
    So far as we know, the current dredging plan is incomplete. 
As we understand it, the coal ash will be trucked to a 
temporary location where it will remain until a permanent site 
is identified and a facility can be built. Without Federal 
regulation, there are not consistent guidelines for coal ash 
storage and no guarantees that this time TVA will provide a 
permanent storage facility that will be properly lined, capped, 
sealed, and maintained.
    Harriman, also Kingston, is now a toxic wasteland due to 
the lack of Federal regulation. We urge that guidelines and 
laws are in place so this never happens again.
    There has been an influx of the number of work vehicles 
traveling throughout Roane County and it is expected that an 
additional 600 trucks plus will be traveling as part of the 
dredging effort. These trucks track coal ash from the loading 
site if they are not properly rinsed off. Then they release the 
ash into the air and track it into neighboring communities. We 
worry that this increased traffic will inevitably cause harm or 
death.
    We are a community that hunts, fishes, and swims in the 
river. Harriman and Kingston residents need to be sure that it 
is safe for our families to recreate in and around the rivers. 
Several fish populations were decimated by the ash and 
estimates suggest that these species will not resume their 
original populations for at least 20 years.
    Harriman is home to people who rely on the fish for their 
meals. This ash is in the water, in the air, and in the ground. 
It is consumed by the fish, the birds, the game, and the 
livestock. We question whether we are at risk for illness as 
the contamination worsens as it moves up the food chain. 
Because of the significant lack of information from the 
authorities, many continue to eat the fish despite the 
contamination.
    We have the right to know what pollutants are in our air 
and water, at what levels these pollutants are occurring, and 
at what point they have the potential for harm. However, each 
successive study contradicts the previous one. We need to know 
why these discrepancies exist. The community must be given full 
disclosure about what chemicals and heavy metals are in the air 
and in the water. We need to know how these contaminants can 
harm our environment.
    I am trying to hurry here. I am almost done.
    Coal ash inevitably entered the air prior to the spill but 
the problem since has increased. TVA initially promised to keep 
the coal ash wet to prevent air contamination. Instead they 
dropped sprouted rye grain and straw from helicopters in the 
middle of January when the temperature was around 15 degrees. 
There are reports that the TVA is now using Flex Terra to cover 
the ash but that is not enough. Too many residents are 
experiencing respiratory problems and other ailments which we 
believe are directly related to the contaminants.
    Mrs. Napolitano. Would you wrap it up, please, ma'am?
    Ms. McCoin. Yes, ma'am, I will. Thank you. Let me just skip 
to this. We desperately need to have testing for our 
communities to find out whether or not our children are being 
poisoned. We need Federal regulation. And we need to make sure 
that this doesn't happen again. We have been neglected. There 
are people who have been satisfied but there are many who have 
not. Thank you.
    Mrs. Napolitano. Thank you for your testimony. I am sure 
there will be questions addressed to you when the Members 
return. With that I will recess for the votes. We have five 
minutes to get to the vote. Thank you.
    [Recess.]
    Ms. Johnson. [Presiding] The Committee will resume its 
hearing. We apologize for having to interrupt the testimony. It 
happens pretty frequently around here. We want to thank Ms. 
McCoin who finished her testimony and move right to Ms. Renee 
Victoria Hoyos.
    Ms. Hoyos. Good afternoon, Chair Johnson, Ranking Member 
Boozman, and distinguished Members of the Committee. Thank you 
for this opportunity to speak to you today.
    My name is Renee Victoria Hoyos. I am the Executive 
Director of the Tennessee Clean Water Network and the President 
of the Board of the National Clean Water Network. The Tennessee 
Clean Water Network's mission is to empower Tennesseans to 
claim their right to clean water and healthy communities by 
fostering civic engagement, building coalitions, and advancing 
water policy for a sustainable future. We are located in 
Knoxville, Tennessee.
    I would like to speak with you today primarily on water 
quality concerns that the Network has. Primarily I would like 
to speak to you about selenium contamination. I do want to 
point out that originally when I saw the site I thought to 
myself that this site needs to be dredged immediately, that 
they need to get out that coal ash as fast as they can. But 
since then I have had the opportunity to speak with scientists 
that have worked on coal fly ash spills and have come to change 
my thinking about the dredging plan.
    Our major concern is selenium. It is a trace nutrient for 
humans and mammals but at high levels it is extremely toxic. 
Dr. Bryce Payne who has worked on the coal fly ash at PPL, 
which discharged into the Delaware River, contacted me and had 
some concerns about the dredging that I would like to share 
with you.
    Selenium, when it becomes oxidated, it goes through a 
number of oxidation changes. Two constituents of this are of 
concern. One is selenite, which is toxic but binds very readily 
to particles and goes into the sediments. However, if the 
sediments get disturbed, and we think they will by dredging, 
this form of selenium turns into selenate. Selenate is highly 
toxic. It does not bind to particles and we believe it can slip 
quite easily through the turbidity curtains that TVA has chosen 
to use as a measure to keep the sediments back.
    One concern that we have is the fact that the fish that we 
are seeing in the river have been tested and have high levels 
of selenium in their reproductive organs. Selenium is taken up 
through the system by bioaccumulation. These tests were done 
January 8th and January 9th of 2009. It was too soon for these 
fish to receive high levels of selenium through the spill. Our 
concern is that they have been receiving selenium through the 
discharge of the wet storage pond for 50 years. The levels in 
these reproductive organs were so high that there is concern 
that the fishery may fail if there is another release of 
selenium.
    Through the dredging process, it mixes oxygen into the coal 
fly ash. If it oxidates to selenate and slips through the 
turbidity curtain, it cannot be recovered. The State has been 
notified of this through conference calls and through written 
letters. Many of the agencies have been notified of this 
problem and they have chosen to continue monitoring. Though we 
are appreciative of continued monitoring, once the selenium 
goes into the system there is no way to get it back. What we 
will be monitoring is probably another big fish kill.
    Another concern is that in the wet storage pond, the permit 
only required that TVA test for total suspended solids and for 
pH. They were never required to test for heavy metals. Because 
of this we think that whole area has probably been contaminated 
by heavy metals. This has been taken up by the fish and those 
fish are consumed by folks that live in the watershed. So we 
have some concerns about the legacy of heavy metal contaminants 
from the pond.
    We feel the wet storage of coal combustion waste is 
inappropriate given the fact that there are a number of new 
technologies that have been in existence since the 1980s. We 
would urge the Committee to ask the EPA to phase out wet 
storage of coal combustion waste in favor of dry storage, which 
appears to be a lot safer. When you are storing coal combustion 
waste, when they take out the bottom ash from the plant, they 
run about 8.5 million gallons a day of water to process this 
into the wet storage ponds. This water comes in contact with 
almost 25 toxic metals that are known to be toxic to humans and 
wildlife at a certain dosage. So we really feel that wet 
storage is an inappropriate form of storage for this fly ash.
    We would like specifically for the Committee to consider 
advising the EPA to apply the Superfund law at the disaster 
site. We feel that the communities' voice has not been well 
heard and that requiring a cleanup under CERCLA will ensure a 
more timely and complete cleanup. It also gives the public a 
venue through this Act to receive some funding to get an 
independent technical assistant as well as puts this on the 
hazardous ranking system to score the site to determine its 
eligibility for listing on the National Priorities List.
    We would also like that the final four TVA board member 
positions that are vacant be filled with folks from the 
environmental and social justice communities so that those 
concerns can be heard at the board level. Again, I want to 
thank you for this opportunity to speak.
    Ms. Johnson. Thank you very much. Dr. Avner Vengosh.
    Mr. Vengosh. Madam Chairman, thank you for inviting me to 
talk here today. My name is Avner Vengosh. I am a Professor of 
Geochemistry at Duke University. My research is on water 
quality. That is what I do and my expertise.
    After the spill on December 22nd, we went to the field to 
conduct research, me and my group at Duke University. That is 
what I am going to talk about today. I am going to talk just 
about the results of what we have been doing, and focusing 
today on the water quality aspect. We have done several other 
studies.
    But talking about the water quality, we went to the field. 
We collected water samples according to very strict protocol, 
the USGS and the EPA protocol, and then we measured trace 
metals using highly sophisticated instruments that we have. We 
are very proud of our analytical capability. We have a very 
high sensitivity and low detection limit. We measured different 
elements including arsenic and mercury in both the water and 
the sediment.
    So this is a map of where we sampled. Basically, we sampled 
the area in which the ash covered the surface area, we call it 
the Cove, in the tributaries where we can see today the 
standing ash. I will show you a picture in a minute. Then we 
sampled in the upstream and downstream of the Emory and the 
Clinch Rivers. We went three times to the field and conducted 
comprehensive analyses. So this is an example of sampling at 
the Cove area where the ash is covering the area. Basically, as 
you can see, this is the area that was most impacted.
    The result--I am not going into details in this table--is 
we found that the Cove area, the area in the tributaries, has 
high level of contaminants. This is an example of arsenic 
concentration. Arsenic, as selenium, is a highly 
bioaccumulative toxic element. We found that in the Cove and 
the tributaries the levels are up almost 100 parts per billion 
whereas in the downstream river water the levels are much 
lower. In fact, they are lower than the maximum contaminant 
level of the EPA.
    Our results in this sense are consistent with TVA results. 
However, from a detailed analysis of the geochemistry we see 
that even the downstream river has a higher concentration of 
arsenic relative to the upstream water, meaning that there is 
some leeching of arsenic and other metals from the ash in the 
water. This will be important when we speak later about 
dredging.
    Basically we also sampled sediments. Our results for 
mercury concentration in the sediments shows that the ash has a 
relatively higher concentration of mercury to the sediments of 
the river upstream for both the Emory and, according to new 
results, also relative to the Clinch River. The downstream 
content of mercury in the sediments of the river indicates 
mobilization and transport of ash into the river. So we are 
actually using this to detect how much ash is actually 
transported into the river.
    So in conclusion, we found that in those areas in the Cove 
and the tributaries, we found very high levels of trace metals 
and of arsenic in particular. We can see that downstream of the 
river there is some leeching of those metals from the sediments 
into the river water. And we argue that during remediation and 
dredging of the Cove, of ash from the river, further leeching 
might become much more dominant.
    So careful monitoring is really a must to make sure that 
remediation and taking out the ash from the river would not be 
associated with a massive contamination of the water. Also, the 
relatively high concentration of mercury in the sediments has 
implications for the ecological health of the river. In certain 
situations we can see that formation of metal mercury in the 
river sediments could affect the health of biological and 
ecological life. So therefore detailed monitoring during and 
after the remediation I think is essential to ensure that the 
quality of the river, the downstream river, will be maintained 
as clean as the upstream river. Thank you.
    Ms. Johnson. Thank you very, very much. I guess that 
concludes the testimony of this panel. We will start with the 
questioning.
    I guess I should ask Ms. McCoin this. Has EPA released 
health information that was received by the public, understood 
by the public, and effective in getting people to take the 
desired actions to reduce their potential health risks?
    Ms. McCoin. Ma'am, it is my understanding that EPA has not 
satisfactorily satisfied the communication. What we have to 
remember is even though something may be available on a 
website, many of our residents may not have anything other than 
dial-up if they even have that and they don't use the computer. 
That is probably where a lot of this conflict in communication 
begins. The fact is that there is still quite a heavy emphasis 
on print copy as far as information distribution in our 
community. So to answer the question, I think that they have 
failed in that regard.
    Ms. Johnson. Have there been any community meetings or 
information sessions for the surrounding area by any government 
entity or TVA?
    Ms. McCoin. Yes, ma'am. What we found initially was that 
people were asking a lot of questions. We were running around 
not knowing what direction to go. Out of that were two efforts. 
Basically two community groups formed and just because of 
personalities tend to attract people to one group as opposed to 
the other. There is a lot of cross-flow between the two groups. 
Both community groups have had meetings trying to figure out 
which direction to head and to transfer information back and 
forth.
    TVA, even as late as last night, did have an information 
sharing system. But it is my understanding only 72 people 
attended. So there has been some of that. Initially they were 
heavily attended. But most people now are just like, okay, I am 
a victim so what am I going to do now? I guess this is the way 
it is going to be. And it is very, very, very sad.
    Ms. Johnson. Are there any instructions to the people as to 
how best to protect themselves until they can get it cleaned 
up?
    Ms. McCoin. What is interesting about that, and I am not 
sure if it was in my testimony, the Tennessee Department of 
Health left on my particular doorstep a bag of instructions. It 
said, don't worry about it--I am summarizing obviously--don't 
worry about it, it is not hazardous. But if you touch it, spray 
it off. Don't let your pets get near it. Don't touch it. Don't 
get near it. Run away from it. You know? But it is not 
hazardous. Get it off of you.
    Then there was a meeting at the Methodist church, and I am 
sorry but I don't remember the date, in which two or three EPA 
people, Mr. Kilgore from TVA as well as the plant manager from 
TVA, and then some of our county officials attended. That 
particular meeting was jam-packed in that Methodist church. I 
specifically asked Mr. Kilgore at that meeting to please tell 
me about this stuff, what is it? He responded to me directly 
that it is nonhazardous. I said, well, then why are we having 
warnings like don't touch it, wash it off, don't get near it, 
don't let your pets climb on it, keep your kids away from it? 
So it is just a conflicting accumulation of data. But it is not 
hazardous, remember? And that is where we are so concerned.
    Then from that are these subsequent health conditions with 
people who have a tendency to have asthma anyway, and there are 
a lot of people with asthma, their sense is they are very, 
very, very sick. And the mental condition of the community is 
even suffering more now because TVA has bought so many 
properties that it is looking like a ghost town.
    So we have now another impact from TVA because of the 
purchase of all those properties. Those people are happy and 
they have moved on but the rest of us, like I plan on not 
leaving the area, you drive in and homes are all empty. It just 
is incredibly depressing to see your ponds and lakes gone, now 
with the beautiful new road, but you have ash all around you 
and then now all the homes are empty.
    So it is a very difficult situation mentally and 
physically. So through, I think, a better print copy of 
communication we could serve our community much, much better.
    Ms. Johnson. Thank you. It is hazardous. If it dries on the 
ground and it is breathed, it will cause respiratory problems. 
If it leeches, as it is doing now, it is ingested by aquatic 
life and the fish get contaminated. The last thing I want to do 
is try to interfere with a major business that is offering 
jobs, but they must operate safely. I am hoping that as we move 
through the testimony we will find that that is one of the 
things that they have emphasized.
    The Tennessee Department of Health recently said that the 
inhalation of this coal ash dust would have the same health 
effects as breathing other types of dust-- except this is a 
more hazardous dust-- and that ingestion of the dust would not 
pose a hazard. Based on the sampling of the ash and your 
knowledge of these issues, would you agree that these are 
statements that you have heard?
    Ms. McCoin. Yes, ma'am. I agree that the ash is very 
hazardous. I have had guests come in out of town and within the 
first 24 hours, you know, I don't want people not to come visit 
me because of where I live, and without saying anything, 
because you don't want to talk about this all day long, without 
saying anything my guests have said, gosh, my eyes are itchy or 
my throat is scratchy and is it the pollen.
    I fear because this is the only way into the community and 
out of the community. We have had a lot of rain to suppress the 
dust but the inside of my house, I can dust but my filters are 
filthy. And I am about a mile up from, though the wind blows 
that way, up from the actual ground zero site. So I worry. I 
worry seriously. I can't imagine if I was trying to raise 
children there. I would be sick, sick thinking that I was 
exposing them.
    We have received this question and answer. I believe it is 
in part of my written testimony and if not we can make sure 
that you get this. This was again distributed by the Department 
of Health, left on my front porch. I think you would find it 
incredibly interesting. If you look at it, when you read it, at 
first you are like, oh, okay. But read it, and read each word, 
and you are going to be really surprised at what you see. It is 
very, very alarming.
    I do want to address, if I could, about TVA being an 
important employer. TVA has been wonderful. Without TVA, we 
would be a very, very suppressed community. Our annual income 
in our community is only $23,000 a year. So if you took TVA 
away from us, we would be desperate. We realize the value of 
coal but we also realize that we can't start over. We can't let 
it pile up again. We have got to be protected.
    Today's technology allows us things that technology back in 
the 1950s when the plant was established were not even thought 
of. They weren't considered and we didn't have them. We have 
got to be able to modify and make business better for TVA 
without the risk of losing TVA because we cannot lose TVA as an 
employer in our community.
    Ms. Johnson. Dr. Vengosh, would you like to comment on 
that?
    Mr. Vengosh. Well, there are several issues here. I mean, 
if you are trying to separate them, there is the water quality 
and there is the air quality. In respect to the water quality, 
it is something we can see and something we can measure. So 
basically we do know and I think my results from my group are 
pretty consistent with what TVA were actually measuring 
themselves. There is not any major contradiction. So that is 
actual measurement and it is pretty consistent.
    The only thing with regard to water is to know what is the 
potential of arsenic, mercury, and selenium to be a potential 
hazard for the ecology? This is again something that we are 
talking about, the potential hazard, something not already 
existing. So it is kind of more difficult for prediction.
    With respect to the air, then we are in a grey zone. We 
have been looking with people from the Duke Medical School at 
what will be the potential of inhalation of this material, of 
ash. Obviously, that will definitely increase the health risk 
of people upon inhalation of this material.
    However, given the relative climate condition as very wet, 
I know we have had a lot of rainfall in the south until now, 
there hasn't been formation of particular matter that would 
derive from the ash as yet. So current measurement of 
particulate matter in the air hasn't found high levels of 
particulate matter nor toxic elements. So for the current 
situation, we are saying there hasn't been formation of dust 
that could affect health. However, this could be changed very 
soon. And if, indeed, this dust does generate, there will be 
some health affects that my colleague just talked about.
    Ms. Johnson. Thank you very much.
    Mr. Boozman?
    Mr. Boozman. Thank you very much. First of all, I just want 
to say that I have great sympathy for the residents, you know, 
and what you are going through. I would like to ask just so we 
kind of can get a little bit more background, first of all, I 
would like to know if any of you are involved in litigation? If 
so, what kind of damages are you seeking?
    Ms. McCoin. Should I answer that first?
    Mr. Boozman. Yes, ma'am.
    Ms. McCoin. Thank you. Currently I am not engaged in any 
litigation, any action against TVA as I have been awaiting 
patiently for some communication to come back from Crawford and 
Crawford, the P&C company that I think is the adjudicator of 
the claim. I filed in January and received one letter back that 
said, oh, guess what, we got your claim. That is all we have 
heard. But I personally have not entered in any legal action 
against TVA at this point.
    Mr. Boozman. Good, thank you. Ms. Hoyos?
    Ms. Hoyos. The Tennessee Clean Water Network has not 
initiated any litigation.
    Mr. Boozman. Good. I guess the two things that I am 
confused about are, first of all, if a determination is made 
not to dredge, how do you solve the problem? What is the 
alternative to dredging?
    Ms. Hoyos. Dr. Bryce Payne has indicated that there are 
some technologies, they are not proven for a spill of this 
size, but there are some ways in which you can protect for the 
dissemination of these heavy metals while getting the ash out 
of the pond area. We were hoping that the dredging plan would 
be, we were actually hoping that the recovery plan would 
include other things, not just dredging.
    There are some technologies that exist, I am sure, that we 
could look at. We could use the next couple of weeks or months 
trying out a couple of technologies to see if they would work 
before we get a number of heavy machinery into this pond, 
chopping it all up, injecting a lot of oxygen, and then 
watching a fish kill happen maybe months later.
    Mr. Boozman. But if we have, and again, I am not being 
argumentative, I am just trying to figure it out, if we have a 
situation where you really believe that we have a toxic waste 
sitting here. Ms. McCoin has testified that people come and 
visit and they have got all of these symptoms, she is concerned 
about her children, and things like that. It seems like hat we 
would move forward as quickly as possible.
    Ms. Hoyos. Oh, absolutely. We don't think that they should 
not remove it. We are just wanting more protective recovery 
methods so that the removal doesn't create an even bigger 
problem that we won't be able to solve.
    Mr. Boozman. I understand. Again, it just seems like we 
should be doing that now rather than figuring it out.
    Dr. Vengosh, we could dump any substance, not any substance 
but most substances, and if you had such great concentrations, 
we could pick something out of thin air, if you dump so much of 
it you would have fish kills and you would have problems. Do 
you consider this a hazardous waste by current definition as we 
normally think of hazardous waste?
    Mr. Vengosh. That is tough one. I think so.
    Mr. Boozman. So in small quantities?
    Mr. Vengosh. Yes.
    Mr. Boozman. You feel like this is a hazardous waste?
    Mr. Vengosh. The problem is the mass balance, basically. So 
if you take this amount and try to calculate, for example, the 
amount of arsenic in kilograms per square mile or per volume of 
the waste, you would get an enormous amount. The numbers would 
be great numbers. So basically I think the balance, when you 
take this amount of ash and put it in a very large river, the 
impact of the ash on the river will be negligible because of 
the dilution factor.
    Mr. Boozman. I don't mean to interrupt. I agree with that. 
But I am talking about in normal quantity. If I had a pile of 
it sitting right here, is that a hazardous waste? Not as we see 
in the picture, but I am just talking about a normal pile.
    Mr. Vengosh. It depends on the interaction between that 
material and the environment. That is, I think, the key to 
understand how this can affect the environment and health. Then 
I would define it by this as to whether it is a toxic waste. If 
this is isolated from the environment, if you find technology 
or isolation from the environment, then there is not any damage 
by itself.
    Mr. Boozman. Do you think it should be dredged or do you 
think that they should wait as we move forward to try and 
figure out some other procedure?
    Mr. Vengosh. I think it should be carefully dredged with a 
very systematic and very detailed monitoring, even more than 
they would. Because we don't know. Basically, it is kind of 
trial and error. So the monitoring, online monitoring, and with 
a very detailed selenium and arsenic resolution would be the 
key to see if this dredging is doing any harm. Also start to do 
it in small sections rather than all the river.
    Mr. Boozman. Okay. Thank all of you; that is very helpful.
    Ms. Johnson. Thank you very much.
    Congresswoman Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair. I am very 
interested in several of the testimonies because I have a like 
scenario, not in my area but close to my area, with DDT in the 
ocean. You can dredge it, but in doing so you are going to 
spread it and then you are going to affect the sea life, in my 
instance, in our area. Yet they have yet to find a way to be 
able to do it so it doesn't cause harm anymore. This is a 
product of an outfall of the sanitation district. With regards 
to the Kingston spill, I am not sure what the site is used for. 
What is the ash used for? What is the process that they have in 
that particular facility or site?
    Ms. Hoyos. The pond contents where the bottom ash and the 
fly ash?
    Mrs. Napolitano. No, I am talking about the company that is 
producing this ash. What is it?
    Ms. Hoyos. I believe it is burned in order to create 
electricity.
    Mrs. Napolitano. Oh, okay. So the ash is an aftermarket 
type of thing?
    Ms. Hoyos. It is the waste, yes.
    Mrs. Napolitano. There are several concerns. One of them 
deals with the water that they use to be able to sludge it, if 
you will, and then either take it away or dump it into the pond 
or whatever. Is it clean? If it isn't, then it is going to hit 
your water tables and it may contaminate them. Some of those, 
if I am correct, some of those constituents do not get, how 
would I say, cleaned out in treatment. I don't know what they 
do with the water.
    Ms. Hoyos. There is no treatment of the water. The permit 
that they had, the National Pollutant Discharge Elimination 
System permit only asked them to test for pH and turbidity.
    Mrs. Napolitano. Has the Health Department not done any 
follow up to be able to determine whether or not some of those 
constituents like selenium, mercury, radium, and arsenic are 
indeed a threat to the health of the community and especially 
to those that have immune systems lower than normal?
    Ms. Hoyos. The Health Department conducted a health 
consultation in the weeks following the spill. It was sort of a 
questionnaire on, you know, how do you feel. They actually 
concluded that stress was a big motivator of some of the 
illnesses that were being described. While we agree that stress 
was probably a big problem out there, what they didn't do was 
come back and follow up on those studies.
    We have asked the ATSDR, the Agency of Toxic Substance and 
Disease Registry has been asked on three occasions to do a full 
public health assessment, which we really think is necessary to 
figure out what is going on in that community. We feel like 
that agency is the best agency because they have the 
experience. This spill is huge and I believe it is taxing our 
State agencies. This was unexpected and it is just so enormous 
that we really need more Federal oversight of the cleanup and 
of the health assessments.
    Mrs. Napolitano. Well, Ms. Hoyos, is TVA doing anything to 
work towards asking the community if there are any after 
effects to report? Are they going out to the community and 
asking any follow up questions, to the residents?
    Ms. McCoin. I believe that the follow up has occurred 
mainly with those who TVA felt that they needed to communicate 
with immediately or in other words, those properties that they 
wanted right away. That would probably be a question that would 
need to be asked of TVA.
    However, if you could imagine where the coal ash spilled, 
it was a circle road that goes around that is full of probably 
about 160 homes, maybe. In that area, the coal ash spill--I am 
just going to illustrate--would be up here at the top. You 
would come in and you would have to take the circle and you 
would come back out. Well, this whole area is blocked off and 
this would be where the coal ash is. Most of the people on that 
circle have not been personally communicated with in weeks. The 
Department of Health of the State of Tennessee, and I think 
this was probably an effort that was in concert with TVA, you 
know, were trying to get the word out.
    Again, their hands were full because you cannot describe 
how large this ash spill is. It is unbelievable. In fact, the 
new road that they put in is beautiful. As I was describing, 
the top of the eagle's head up there on that emblem, that is 
where they have already knocked it down. That is going to be 
the side of the hill, I guess, by the road. That is left over. 
It is just huge.
    But back to the Department of Health, this bag with this 
letter with questions about how in keeping with their mission 
they need to know if we have got any concerns and what can we 
do to protect ourselves. There was never any personal follow up 
on this and I can guarantee you that there are many people that 
could not understand this letter. I am not suggesting that 
people in my community cannot read or comprehend. I am just 
suggesting is this is a scary thing to read in the first place 
because we know our community has been forever changed. Then 
you are afraid. It talks about toxins and chemicals and it says 
call us.
    Well, they have a hard time communicating over the 
telephone, describing. So they follow up, there were people who 
did respond and said they had headaches, bloody noses, couldn't 
breathe, dark circles under their eyes. I mean, the list is 
unbelievable. There are stress related illnesses. Children are 
missing school for weeks. But there are a lot of other people 
who are not responding. I could go down through the road and 
say that man has cancer, his sister is taking care of him, and 
she has emphysema. I can guarantee you they did not respond to 
this and they are really very close to ground zero. That story 
can be repeated over and over and over. Again, it is because we 
have relied so heavily on the internet as the communication 
piece when most people do not communicate via the internet.
    Ms. Johnson. Thank you very much.
    Mr. Duncan?
    Mrs. Napolitano. Thank you. Madam Chair, could I ask that 
be introduced into the record?
    Ms. Johnson. Time has expired. Mr. Duncan?
    Mr. Duncan. Thank you, Madam Chairwoman. I do apologize to 
Ms. Hoyos and Dr. Vengosh because I had previously scheduled 
appointments in my office. But I did read their testimonies. I 
did hear Ms. McCoin's testimony. I know some of her family and 
they are really fine people.
    I will say again that I want to make sure that everybody 
who is directly affected is treated fairly, compensated, and 
made whole as much as possible. I will say once again, though, 
that I have also got to make sure that we are fair to the 99.99 
percent of the people who weren't affected by this, that we try 
to handle this in such a way that their utility bills are not 
doubled or quadrupled or whatever.
    I do know that there have been hundreds or maybe even 
several thousand people when you count the government 
employees, the TVA employees, the EPA, the Tennessee State 
employees and then you add in the contractors and their 
employees, so it has to be many hundreds if not a few thousand 
who have been working to try to correct all of this mess up 
until now. And it is a mess. It is a very sad thing that this 
happened.
    But what we need in this whole situation is a little 
balance and common sense and fairness. In these kinds of 
situations you can never satisfy the extremists. We have seen 
some of these things in the past where they have found, you 
know, sometimes you hear about these quack doctors that will 
come in and convince people that anything that happens to them 
from here on out is due to the coal ash. We just can't go along 
with the kooks and the extremists in these situations.
    With that, I don't have any questions. Madam Chairwoman, I 
have some other appointments though I will stay as much as I 
can. We are going to have some votes, I understand, at 4:00 
p.m. or 4:30 p.m. so I guess we need to move as fast as we can.
    Ms. Johnson. Thank you very much.
    Mr. Duncan. Thank you.
    Ms. Johnson. Congresswoman Edwards?
    Ms. Edwards. Thank you, Madam Chairwoman.
    Thank you each for your testimonies. I want to focus, Ms. 
McCoin and Ms. Hoyos, on the aspects of your testimonies that 
deal with public participation. I would like for you to 
describe formal mechanisms that you believe or that TVA has 
told you apply to the participation of the public in 
determining the dredging plan, looking at health consequences, 
and all of the aspects of what is happening with the cleanup. 
Do you believe that there is a formal mechanism that is 
required for public participation?
    Ms. Hoyos. I believe there is a more formal mechanism 
required under CERCLA. We would like to see that invoked. 
Currently it is our experience observing some of these public 
meetings that the community is being talked to and not talked 
with. There was one particular meeting on March 5th, it was a 
number of State agencies, and they had a number of booths that 
folks could mill around and ask questions.
    The program then turned to talks from the different 
agencies on what they were doing and the community was given 
half an hour to have question and answer. The community was 
actually given cards and told to write their questions on the 
cards. The agencies would then group the cards into topics and 
select out the ones that they thought were most representative 
of the issue. We really took great offense to this method of 
public participation.
    By the end, the agencies had over-used their time and so 
there was only enough time for a couple of questions. And 
though the agencies agreed to stay behind and answer questions, 
what this doesn't allow for is transparency. What people need 
in public participation is to have their concerns heard by the 
entire community. Speaking to people one on one is very 
private. So you can not receive the full benefit of hearing 
other people's concerns.
    Ms. Edwards. So let me just interrupt you because I just 
have a limited amount of time. In your testimony you indicate 
that you would like to see the Superfund law applied to this 
site precisely because you believe that it would guarantee a 
more formal process for public participation and exchange and 
place requirements on TVA in terms of its responsibility to the 
community?
    Ms. Hoyos. That is correct. Currently there is no public 
participation process. It is just whatever the agencies feel 
that they need to communicate with the community.
    Ms. Edwards. Ms. McCoin, if I could just ask you about the 
health data. Do you believe that TVA has a requirement to 
gather the health data, to analyze it, and report it back in 
any kind of formal way? Or is that just at their discretion?
    Ms. McCoin. I believe it is at their discretion. If there 
is a formal process, I have not seen that implemented.
    Ms. Edwards. So in terms of the bag that you describe that 
was left at your home, for the 6,000 or so residents, there has 
been no way really to gather the information, to analyze the 
information, and to look at both the short term health 
consequences and the long term epidemiology in terms of the 
effects of the coal ash ingestion?
    Ms. McCoin. The bag that was left at my door was left, I 
assume, by the Department of Health and not TVA because that is 
the letterhead that it is on. If that was in concert with a 
request and effort of TVA, I am not aware of that. It may have 
been.
    Ms. Edwards. But did anybody come back and get the bag?
    Ms. McCoin. It was just a reference. If you have any 
questions or if you want to report something, call this number. 
There has never been a one on one consultation with me and I am 
right on the main road. I know several other families that have 
not been communicated with. It sure seems that there would be a 
list, a gathering of data, and is there any type of common 
complaint that we are seeing out of this.
    To my knowledge, none of that is going on. That, again, is 
where some of the frustration comes in which has driven people. 
We were told to contact the Outreach Center, which was 
established right after the disaster. The people staffing the 
Outreach Center, I believe, initially were from out of town. 
They moved them out and then brought in----
    Ms. Edwards. So there has been no direct sort of gathering 
of information, disseminating of information, or process for 
you to report health complaints, and then an analysis for the 
community of what those complaints would be?
    Ms. McCoin. There has not been any analysis reporting that 
I have seen.
    Ms. Edwards. Thank you very much, Madam Chair.
    Ms. Johnson. Thank you. Mr. Griffith.
    Mr. Griffith. Thank you, Madam Chair.
    Is your water safe? Have you been reassured by your mayor 
or your municipality or the State of Tennessee that your water 
is safe?
    Ms. McCoin. My drinking water, I assume?
    Mr. Griffith. Yes, your drinking water.
    Ms. McCoin. My drinking water comes from upstream 
approximately 10 miles. We have been reassured that that water 
is safe. The residents downstream, I am not sure. Renee may 
know where those water plants are better than I. It is kind of 
like, mine is safe so I am drinking it. But as the dredging 
begins, I know that there is a lot of concern, not just in 
Harriman but in Rockwood and on down towards the Tennessee 
River wherever that water is processed.
    Mr. Griffith. I am the lowest point on the Tennessee River.
    Ms. McCoin. Oh, you are?
    Mr. Griffith. Guntersville Dam, yes. That is my district so 
I just wanted to know how things were going in your area.
    Ms. McCoin. There is a lot of concern. It almost seems that 
the people down on the Tennessee River weren't thinking much of 
it until they realized, wait a second, that stuff is going to 
go somewhere and it heads this way. So there is that concern.
    Again, I think instead of this being a negative, take it as 
an opportunity to communicate in a public forum that people 
read versus on the internet. Explain what you are doing so they 
can understand it.
    Mr. Griffith. Well, I wanted to commend the panel for your 
attitude toward this. There are an awful lot of good, solid 
people at TVA that are environmentally conscious and concerned. 
Apparently, the design of their pond and the designs of other 
ponds not just in the TVA area need to be looked at and 
certainly improved. I think that this is a teaching moment for 
us because we have been with coal fired plants for many years, 
well over half a century, and they are close to our waterways.
    Whether or not the concentration of selenium in 
reproductive glands is a significant fact or not, we don't 
know. We do know that reproductive glands have a tendency to 
concentrate heavy metals over the years because of their blood 
supply, et cetera, et cetera. But it does raise concerns. I am 
on the TVA system in Huntsville, Alabama, the Madison County 
area, and my whole district. The river runs through it.
    So we are concerned and we communicate with the TVA. It is 
not an unusual problem for a large electrical company selling 
electricity not to be able to communicate. That is not their 
game. But they are getting better at it and I think you are 
going to help them get a lot better at it. So I appreciate each 
and every one of you being here. I think it is a teachable 
moment for America. We are going to run into this as we 
concentrate on balancing the protection of our rivers and 
streams with our desire for safe energy. So thank you all.
    Ms. Johnson. Thank you very much. And thanks to the panel. 
We will now release you and go to the third panel. Thank you 
very much for your testimonies and for being here.
    Thank you very much. We will acknowledge you as you are 
listed here: Mr. Tom Kilgore, President and Chief Executive 
Officer of the Tennessee Valley Authority in Knoxville, 
Tennessee; Mr. Stan Meiburg, the Acting Regional Administrator 
for Region Four of the United States Environmental Protection 
Agency in Atlanta, Georgia; and Mr. Paul Sloan, Deputy 
Commissioner of Tennessee Department of Environment and 
Conservation in Nashville, Tennessee. Mr. Kilgore, you may 
proceed.

    TESTIMONY OF TOM KILGORE, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, TENNESSEE VALLEY AUTHORITY; STAN MEIBURG, ACTING 
      REGIONAL ADMINISTRATOR, REGION FOUR, UNITED STATES 
    ENVIRONMENTAL PROTECTION AGENCY; AND PAUL SLOAN, DEPUTY 
     COMMISSIONER, TENNESSEE DEPARTMENT OF ENVIRONMENT AND 
                          CONSERVATION

    Mr. Kilgore. Thank you, Madam Chairwoman Johnson, Ranking 
Member Boozman, and Members of the Committee. Thank you for 
this opportunity to discuss the ash spill at TVA's Kingston 
Fossil Plant, the actions we are taking to clean it up, and 
what we are doing to monitor the environment and to protect the 
citizens and the environment.
    First let me say on behalf of TVA that we deeply regret the 
impacts on our neighbors and the impacts to the environment. We 
are grateful that no one was seriously hurt. I have told the 
people of Roane County and our employees that we are committed 
to clean up this spill, protect the public health, safely 
restore the area, and wherever possible to make it better. We 
are proceeding under reviews and approvals from the Tennessee 
Department of Environment and Conservation and the EPA.
    Our four primary objectives are to protect the health and 
safety of the public and our recovery personnel, to restore and 
protect environmentally sensitive areas, to keep the public and 
the stakeholders informed, and to restore conditions in the 
community and to rebuild trust in TVA. In my written testimony 
I have described the event and the actions that TVA is taking 
to ensure the public health and safety.
    The spill occurred between 12:00 a.m. and 1:00 a.m. on 
December 22nd when a containment dike failed on the coal ash 
storage cell at Kingston, about 40 miles west of Knoxville. The 
failure did release about 5.4 million cubic yards of coal ash 
onto 300 acres. I was there within the hour and I have been 
there almost every week since then. The ash spilled onto land, 
adjacent waterways, and the Swan Pond Embayment including the 
Emory River, which flows into the Clinch River about two miles 
downstream. A root cause analysis is underway by a national 
engineering firm and we expect a report on their conclusions 
this summer.
    On March 19th we reached a major milestone in the recovery 
with the start of the dredging to remove about two million 
cubic yards of ash material. The dredging plan was approved by 
the State and the EPA. Environmental monitoring and controls 
are in place. We are making progress but we have a long way to 
go.
    In our efforts to protect the public health and safety we 
are working with State officials and the EPA in establishing an 
environmental monitoring network for sampling the air, the 
drinking water, and the soil. According to the Tennessee 
Department of Health, public and private drinking water 
supplies continue to meet State and Federal standards. Those 
results come from certified laboratories, not from TVA. More 
than 27,000 air samples taken by the State and TVA show that 
the average daily samples for particulates remain below the 
National Ambient Air Quality Standards set by EPA.
    A plan is also being developed to respond to individual 
health concerns. Since there have been several questions about 
this, I will go into more detail. We are currently finalizing a 
contract with Oak Ridge Associated Universities, a consortium 
of a hundred research universities. This program will give 
people in the community access to medical and toxicological 
experts who have experience with the contaminants associated 
with ash.
    On March 2nd, as a part of the order issued by the 
Tennessee Commissioner of Environment and Conservation, TVA 
submitted a formal corrective action plan to the State with a 
copy to the EPA. This document covers plans for environmental 
monitoring and testing, protecting the public and private water 
supplies, removing the ash from the public waterways, 
remediating and stabilizing the ash storage facility, and 
protecting the health and safety of the public and, again, the 
workers involved in the recovery. The plan includes the 
formation of an interagency working group consisting of 
Federal, State, and local agencies. We will work closely with 
them to move the recovery forward safely with a full attention 
to the environment.
    Since the first day of the event, we have endeavored to 
keep the public informed and involved. Last night we held our 
latest meeting at Roane State Community College to keep the 
community informed. A community outreach center remains open in 
downtown Kingston to respond to the claims and concerns. More 
than 740 households have used that center.
    I realize that the monitoring equipment and sampling 
results don't make the physical effects of the situation go 
away. But I hope that the results thus far and TVA's actions 
going forward will help reassure the public that we will be 
there until the job is done. Extensive information is posted on 
the TVA public website and we will continue to address the 
community concerns. As I said at the beginning, our intent is 
to do this job right. Thank you and I look forward to your 
questions later.
    Ms. Johnson. Thank you very much.
    Mr. Meiburg?
    Mr. Meiburg. Thank you very much, Madam Chairwoman, Ranking 
Member Boozman, and Members of the Subcommittee. I appreciate 
the opportunity to testify this afternoon. I am Stan Meiburg 
and I am the Acting Regional Administrator for EPA's Region 
Four office in Atlanta, Georgia. I would like to request that 
my written statement be entered into the record.
    I would like to summarize EPA's actions in response to this 
release as well as our commitment to a cleanup that protects 
public health and the environment and is consistent with the 
law and sound science. We recognize our ongoing responsibility 
to inform and to involve the community in our activities and to 
keep the Committee informed as cleanup progresses.
    As soon as we learned of the release on December 22nd, EPA 
Region Four joined TVA, the Tennessee Department of Environment 
and Conservation or TDEC, and other State and local agencies in 
a coordinated response. The EPA provided oversight and 
technical advice to TVA and conducted independent water 
sampling and air monitoring to evaluate public health and 
environmental threats. We also set up a Kingston task force in 
Region Four to coordinate our continuing actions. The Chair of 
that task force, Tom Welborn, is here with me today.
    There are more details about sampling results in my written 
testimony but in general we found that just after the release, 
samples of untreated river water showed elevated levels of 
suspended ash and heavy metals known to be associated with coal 
ash. We saw this again after a heavy rainfall on the night of 
January 6th, 2009. However, treated drinking water from the 
Kingston water treatment plant, which is located downstream of 
the release, has met all Federal standards since the ash 
release occurred.
    TDEC is continuing a regular sampling program at that 
plant. Some residents near the site rely on private wells for 
drinking water. EPA and TDEC have identified and sampled 
potentially impacted residential wells in the immediate area. 
TDEC continues to handle well sampling requests from residences 
within four miles of the ash spill. Over 100 wells have been 
tested to date and all have met drinking water standards.
    Wind blown ash poses a potential risk to public health. 
With EPA oversight, TVA began air monitoring for coarse and 
fine particles. EPA also conducted independent monitoring to 
validate TVA's findings. To date, all of the more than 25,000 
air samples from this area have measured levels below the 
National Ambient Air Quality Standards for particles. Together 
with TDEC we will continue to oversee TVA's air monitoring 
throughout the cleanup as well as TVA's efforts to control dust 
at the site.
    Sampling results for sediment, air, and water testing are 
available on the websites of the various agencies.
    While protection of the public health and safety remains a 
primary concern, EPA and TDEC are also very concerned with the 
long term ecological health of the Emory and Clinch Rivers. We 
support efforts to minimize flooding and sheet flow over the 
ash spill area. We will be monitoring this work while it is 
underway and if we see elevated levels of compounds, we will 
ask TVA to stop dredging and investigate. We also endorse the 
requirement in the TDEC Commissioner's order for TVA to support 
a detailed ecological assessment to determine how to restore 
the functions of this aquatic system and its tributaries.
    Our working relationship with the State of Tennessee is 
exceptional and we are committed to continuing that. Our common 
objectives will be to prevent further environmental damage, 
monitor the air and water quality, share information as we 
receive it, review cleanup plans as they become available, and 
make sure that the cleanup meets all Federal and State laws and 
standards.
    Madam Chairwoman, this was a terrible event for the 
community. EPA recognizes that members of the community are 
dealing with very difficult changes in their daily lives, their 
homes, and their properties. We recognize that even under the 
best of circumstances, this cleanup, to be done right, will 
take time. EPA, along with TDEC, will be there to ensure that 
it is done right. Done right means that the cleanup is 
comprehensive; is based on sound scientific and ecological 
principles; moves as quickly as possible; is fully transparent 
to the public, especially to the local community; complies with 
or is better than all Federal and State environmental 
standards; and gives EPA, TDEC, and the public confidence that 
we are doing everything we can to keep this from happening 
again here or at any other TVA site.
    Thank you very much for the opportunity to testify today. I 
will be happy to answer any questions you may have.
    Ms. Johnson. Thank you very much. Let me say to the 
witnesses that we have a vote. We have less than 10 minutes to 
get there, but we do want to finish with the testimony. We will 
gather the questions and submit them to you.
    I ask unanimous consent to introduce to the record, to put 
in the record, a statement handed to us by Representative 
Napolitano. It is from the State of Tennessee Department of 
Health. Is there any objection? Hearing none, so ordered.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sloan?
    Mr. Sloan. Thank you, Madam Chairwoman, Ranking Member 
Boozman, and Members of the Subcommittee. Thank you for the 
opportunity afforded me to testify this afternoon.
    I am Paul Sloan, Deputy Commissioner of the Tennessee 
Department of Environment and Conservation and Director of its 
Bureau of Environment. By virtue of Tennessee's various 
enabling statutes, our Department implements the Federal Clean 
Water Act, the Federal Clean Air Act, and regulates solid waste 
management consistently with standards currently prescribed by 
the Federal Resource Conservation and Recovery Act or RCRA.
    The catastrophic ash release at the TVA Kingston Fossil 
Plant in the early morning of December 22nd, 2008 inundated a 
300 acre portion of the Emory River, its adjoining embayments, 
and riparian areas of the Watts Bar reservoir. The Department's 
immediate response was to fully participate as a team member 
with EPA, TVA, the Tennessee Emergency Management Agency, 
Tennessee Department of Health, and Roane County officials and 
first responders in the emergency response based at the 
facility's incident command center.
    Given its enormous scale, we are thankful that remarkably 
the release resulted in no loss of life or critical injury. 
That being said, its impact on area residents and their 
supporting communities three days before Christmas was 
devastating, a fact that deepens our staff's resolve to assure 
that this cleanup and its environmental restoration be 
completed thoroughly and in full compliance with all applicable 
laws and regulations. Reflective of that resolve is the fact 
that by February 28th, more than 60 of our staff members have 
expended more than 10,000 hours working at various aspects of 
our response.
    Our Department's five priorities have been to assure public 
safety as well as public access to information; to conduct 
extensive sampling in all media including water, land, and air; 
to establish an enforcement framework with a clear directive to 
TVA; to begin the removal of ash from the Emory River; and to 
make our decisions with the collaboration of a broad and 
supporting base of scientists.
    Our initial sampling priority was to determine whether 
public drinking water supply was safe. Daily samples were taken 
and reported for the closest two public water treatment 
facilities serving Kingston and Rockwood. All sample results 
have fully met drinking water standards. In addition, we have 
sampled over 100 domestic wells within a four mile radius of 
the site. We have found no groundwater contamination associated 
with the ash in these wells. With respect to surface water, 
routine sampling has shown averages within water quality 
standards. However, maximum sample data have shown some 
exceedances particularly proximate to the released ash.
    The Department has collected and analyzed coal ash samples. 
Although results are below the levels that would cause the ash 
to be characterized as a hazardous waste, its safe and 
appropriate removal and final disposition has been required by 
the Department in its own enforcement order issued shortly 
after the release.
    The Department's sampling of air particles has also shown 
no exceedances of National Ambient Air Quality Standards. 
However, TVA's continued management of airborne particles is 
and will remain a high priority of our Department.
    To assure that the public is kept fully informed, all 
sample results as well as TVA submittals to the Department are 
posted to our website. TVA and EPA also host websites on which 
their data is posted as well as other supporting material. 
Numerous community meetings have been held and will continue to 
be held.
    On January 12th, the Department issued its enforcement 
order requiring among other things that TVA prepare a 
comprehensive corrective action plan. Further, on February 4th 
the Department joined EPA Region Four in directing TVA to 
provide all submittals simultaneously to both agencies for 
review and approval. TVA's proposed cap has been submitted and 
is under consideration. It is on our website for public review 
and comment.
    Ms. Johnson. Thank you very much. You have submitted your 
statement to the record.
    I have one question before we have to run. On March 9th, 
2009, the Administrator of EPA sent a survey to TVA under 
Section 104(e) of the Superfund law requesting information on 
the condition of coal storage facilities under their control. 
Has TVA responded to that yet?
    Mr. Kilgore. Yes, ma'am, we have.
    Ms. Johnson. Okay. Apparently it has not been received. 
Nevertheless, let me just say in conclusion that it is clear 
that there is a problem for the public representatives and it 
is a problem for the people that live in this area. I would 
personally ask that all of you work together. I would ask that 
you clear this area just as quickly as possible.
    We all know, if we admit it, that this is not a good 
situation for the consumers. We understand business will go on 
and accidents will happen but there is a strict responsibility 
to clear up the damage that the businesses have done just as 
soon as possible.
    We will have another hearing soon. We will be sending out 
the notices. We thank you very much for being here today.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
